<html>
<title> - [H.A.S.C. No. 112-57]THE RESERVE COMPONENTS AS AN OPERATIONAL FORCE: POTENTIAL LEGISLATIVE AND POLICY CHANGES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-57]
 
       THE RESERVE COMPONENTS AS AN OPERATIONAL FORCE: POTENTIAL
                     LEGISLATIVE AND POLICY CHANGES

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 27, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
68-165                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4c5b446b485e585f434e475b0548444605">[email&#160;protected]</a>  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, July 27, 2011, The Reserve Components as an 
  Operational Force: Potential Legislative and Policy Changes....     1

Appendix:

Wednesday, July 27, 2011.........................................    25
                              ----------                              

                        WEDNESDAY, JULY 27, 2011
 THE RESERVE COMPONENTS AS AN OPERATIONAL FORCE: POTENTIAL LEGISLATIVE 
                           AND POLICY CHANGES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Callahan, RADM David, USCG, Acting Director of Reserve and 
  Leadership, U.S. Coast Guard Reserves..........................    10
Carpenter, MG Raymond W., USA, Acting Director, Army National 
  Guard..........................................................     5
Debbink, VADM Dirk J., USN, Chief of Navy Reserve................     8
McKinley, Gen. Craig R., USAF, Chief, National Guard Bureau......     3
Moore, Maj. Gen. Darrell L., USMC, Director, Reserve Affairs 
  Division, U.S. Marine Corps Reserve............................     9
Stenner, Lt. Gen. Charles E., Jr., USAF, Chief, Air Force Reserve     6
Stultz, LTG Jack C., USA, Chief, Army Reserve....................     7
Wyatt, Lt. Gen. Harry M., III, USAF, Director, Air National Guard     4

                                APPENDIX

Prepared Statements:

    Callahan, RADM David.........................................   153
    Carpenter, MG Raymond W......................................    49
    Davis, Hon. Susan A..........................................    30
    Debbink, VADM Dirk J.........................................   122
    McKinley, Gen. Craig R.......................................    32
    Moore, Maj. Gen. Darrell L...................................   145
    Stenner, Lt. Gen. Charles E., Jr.............................    77
    Stultz, LTG Jack C., joint with Command Sgt. Maj. Michael D. 
      Schultz, U.S. Army Reserve.................................    84
    Wyatt, Lt. Gen. Harry M., III................................    41
    Wilson, Hon. Joe.............................................    29

Documents Submitted for the Record:

    Statement of David L. McGinnis, Acting Assistant Secretary of 
      Defense for Reserve Affairs................................   161

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   193

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   200
    Mr. West.....................................................   201
    Mr. Wilson...................................................   197

 THE RESERVE COMPONENTS AS AN OPERATIONAL FORCE: POTENTIAL LEGISLATIVE 
                           AND POLICY CHANGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                          Washington, DC, Wednesday, July 27, 2011.
    The subcommittee met, pursuant to call, at 2:12 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, I would like to welcome 
everyone to a subcommittee meeting of the Military Personnel 
Subcommittee of the House Armed Services Committee. Our topic 
today is ``The Reserve Components as an Operational Force: 
Potential Legislative and Policy Changes.''
    And we truly have a distinguished panel here today. This is 
as good as I have ever seen in my service in Congress. So I 
thank you for being here.
    Today, the subcommittee will turn its attention to the 
important issue of maintaining an operational Reserve that has 
been deployed as a partner with its Active Component for the 
last 10 years.
    The committee believes the Reserve Component will continue 
to serve an important and vital role post Iraq and Afghanistan 
as the United States military continues to engage in conflict, 
partnership efforts, and humanitarian assistance around the 
globe.
    The key issue before us today is the ability to maintain 
access to the operational Reserves in a future peacetime 
environment when the military is not operating under the 
emergency mobilization authority.
    We will examine a Department of Defense [DOD] proposal to 
provide a more flexible involuntary mobilization authority and 
how the Reserve will maintain a ready and viable force.
    To help us explore these issues, we are joined today by an 
excellent and extraordinary panel consisting of the chief of 
the National Guard Bureau and chiefs of the Reserve Components.
    I would ask that all witnesses keep their oral opening 
statements to 3 minutes. Without objection, all written 
statements will be entered into the record, to include 
testimonies submitted for the record by Mr. David L. McGinnis, 
Acting Assistant Secretary of Defense for Reserve Affairs.
    [The information referred to can be found in the Appendix 
on page 161.]
    Mr. Wilson. Before I turn it over to our dedicated ranking 
member, Mrs. Susan Davis from California, I would like to 
introduce our panel. We are honored today to have General Craig 
R. McKinley, U.S. Air Force, Chief, National Guard Bureau; 
Lieutenant General Jack Stultz, U.S. Army, Chief, Army Reserve; 
Vice Admiral Dirk Debbink, U.S. Navy, Chief of Naval Reserve, 
Lieutenant General Charles Stenner, U.S. Air Force, Chief, Air 
Force Reserve; Lieutenant General Harry Wyatt, U.S. Air Force, 
Director, Air National Guard; Major General Raymond Carpenter, 
U.S. Army, Acting Director, Army National Guard; Major General 
Darrell L. Moore, U.S. Marine Corps, Director, Reserve Affairs 
Division, U.S. Marine Corps Reserve; Rear Admiral David 
Callahan, U.S. Coast Guard, Acting Director of Reserve and 
Leadership, U.S. Coast Guard Reserves.
    I now turn to Mrs. Susan Davis for her opening remarks.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 29.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman.
    And I certainly look forward to hearing from our Reserve 
Component leadership today. I have to tell you from where we 
sit right here, it really is a very distinguished and 
impressive panel and we appreciate you all being here.
    It is very bright, actually.
    Last year, we focused our attention on what it means to be 
an operational Reserve Force and examined what policies, what 
laws and practices needed to be addressed to ensure a 
sustainable Reserve Force.
    Since September 11th, 2001, nearly 650,000 National 
Guardsmen and reservists have been deployed, the majority of 
whom have served in the theater of combat operations.
    Over the past 10 years, the Reserve Components have 
transitioned from a strategic Reserve to an operational one. 
However, as requirements for deployment begin to decline, the 
question for the Reserve Components is how they maintain their 
operational role in an era in which we will see decreasing 
resources.
    One of the questions that we have before the subcommittee 
is what legal authorities and policies are needed to best 
support the continued development of the Reserves as an 
operational Reserve Force while ensuring that the understanding 
and support from families, communities, and employers for 
continued deployment of Guard and Reserve personnel continues.
    Mr. Chairman, I am interested in hearing from our witnesses 
on how best we can address this question and others as we move 
forward in this new environment. Thank you very much.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 30.]
    Mr. Wilson. Thank you, Mrs. Davis.
    General McKinley, you may begin.

  STATEMENT OF GEN. CRAIG R. MCKINLEY, USAF, CHIEF, NATIONAL 
                          GUARD BUREAU

    General McKinley. Chairman Wilson, Ranking Member Davis, 
members of the subcommittee, it is an honor and a privilege to 
be here with you today. Mr. Chairman, we welcome your 
leadership to the subcommittee and we are incredibly proud to 
have a former member of the National Guard chairing this 
important subcommittee. We are also proud to have your son 
serving in our ranks. Thank you.
    Today, there are 460,000 members of the Army and Air 
National Guard. Our strength is on mark and our retention is 
even better.
    With me today and assisting me is our director of the Air 
National Guard, General Wyatt, and our acting director of the 
Army National Guard, General Carpenter. And I also have our 
director of our Joint Staff Major General Randy Manner with us 
today.
    Over the past 10 years, the military operations in Iraq, 
Afghanistan, and elsewhere around the world, the National Guard 
has been a full partner. As a member of the total force, 
National Guard successfully transformed into an operational 
force.
    This transformation would not have been possible without 
the significant investments this Congress made in the National 
Guard and Reserve. And we thank you all very much for that 
support. We must continue to be used as an operational force, 
we believe, so that significant investment is not squandered.
    Today, our Nation faces many threats. One of the most 
significant national challenges is our current fiscal 
situation. As the Department of Defense evolves to match 
emerging threats, they must do so with an eye towards fiscal 
responsibility. This includes openness and transparency in its 
planning for the future budget and force structure of the 
Reserve Component.
    Budget cuts and decisions must not disproportionally affect 
the Reserve Component in our new role as an operational force. 
The fiscal decisions made today will dramatically influence the 
Reserve Component of the future and ultimately the Nation's 
ability to respond to future contingencies at home and abroad.
    Of particular importance to us is codifying assured access 
to the National Guard; that is why we work closely with the 
Army, the Air Force, the Secretary of Defense and the Governors 
of this Nation to develop a legislative proposal to change 
current call-up authorities for the Reserve Component.
    This proposal would ensure the Secretary of Defense can 
support combatant commanders' needs for missions other than 
war. This authority will also allow the Department of Defense 
to utilize the National Guard's unique capability throughout 
the world.
    Today, the National Guard supports many combatant 
commanders in theater security cooperation missions. The State 
Partnership Program is an example of a global influence the 
National Guard's unique capability can provide.
    The need for partnership building missions will continue to 
grow in the future and the National Guard stands ready to 
provide its years of expertise. Although the demands for these 
missions will continue to grow, today many of the combatant 
commanders' priorities are unfunded to the Department's 
guidance for employment of the force. That is why along with 
access, it is crucial that the operational force is fully-
funded.
    Estimates for the costs of the Reserve's operation role 
vary greatly, that is why it is important to begin transparent 
budget planning now. Today, the overseas contingency operation 
accounts fund much of the Reserve Component deployment, 
training, and family support.
    To ensure continued funding to support the operational 
force, our training readiness equipment and personnel cost must 
be included in the base budget. I am thankful that the Active 
Army has taken these concerns seriously and included the 
National Guard's operational role in their future budget 
planning.
    The Department of Defense must embrace the reality of the 
Reserve as an operational force and the associated costs and 
adequately address them in future programming.
    As an operational force, it is important that the National 
Guard leadership structure reflect the crucial role our forces 
are playing. The National Guard Bureau has grown with the 
soldiers and airmen of the operational force and is now a joint 
activity and no longer simply a support entity.
    Our knowledge and experience in homeland security issues is 
unrivaled in the Department of Defense. And we are the only 
force that can advise the Department of Defense leadership on 
the crucial role National Guardsmen play at the local level.
    A top priority during my 10 years as chief is to ensure the 
organization of National Guard Bureau supports our new role, as 
that joint activity to the Department of Defense and fosters 
the development and mentorship for future general officers to 
serve in my current position.
    I would like to ask General Wyatt to make a brief 
statement, as well as General Carpenter, and then I look 
forward to answering your questions.
    [The prepared statement of General McKinley can be found in 
the Appendix on page 32.]

 STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Chairman Wilson and Ranking Member Davis, as 
we gather here today, there are Air Guard men fighting in Iraq, 
Afghanistan, supporting NATO [North Atlantic Treaty 
Organization] operations in Libya, providing air logistics 
support to the National Science Foundation in Greenland, and 
helping to defend U.S. interests on every continent around the 
globe.
    In addition, Air Guard men and women are protecting the 
skies over our very heads with the Air Sovereignty Alert 
mission, assisting civil authorities, protect life and property 
in the U.S. including helping flood and tornado recovery 
efforts in the Midwest.
    There are Air Guard members helping U.S. customs and border 
patrols to secure our southern borders. And so far this summer, 
Air National Guard aerial firefighting units have dropped over 
350,000 gallons of fire retardant on wildfires across the 
Southwest in support of the National Forest Service.
    Your Air Guard is able to do this because Congress had the 
wisdom to provide the funding and the authorities needed to 
create and sustain an Air National Guard, a Guard that is 
capable of functioning as both an operational force augmenting 
the Active Duty Air Force's day-to-day operations and, as a 
Reserve Force, permitting the total Air Force to rapidly expand 
its capability and capacity to meet threats to our national 
security.
    As we look to the future, we are working closely with 
United States Air Force leadership to ensure the Air National 
Guard remains ready and accessible so that your investment and 
faith in your Guard is not lost.
    To remain a viable operational component, the Air National 
Guard requires dedicated professional people, modern equipment, 
and training. People are our most valuable asset because a 
Guard airman is most difficult to replace of all the elements 
of our force.
    Training and experience take time and there is no shortcut 
or quick fix. We owe them the best equipment and training 
available because seamless integration into the joint war fight 
requires compatible equipment and practice.
    The second part of being an operational component is 
accessibility. U.S. Air Force must have confidence that they 
can obtain the Air Guard's help when needed; in fact, we have 
answered over 75 percent of our request for forces from our 
parent service with volunteerism.
    The DOD proposed changes to 12304 will help by expanding 
the Secretary of Defense's ability to call upon the Reserve 
Components. The budget provision of 12304 is equally important 
since the major part of accessibility is having the funds, MPA 
[military personnel account] days available to use the Air 
National Guard.
    Again, thank you for your continued support of your Air 
National Guard, and I look forward to answering your questions.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 41.]
    General McKinley. General Carpenter.

  STATEMENT OF MG RAYMOND W. CARPENTER, USA, ACTING DIRECTOR, 
                      ARMY NATIONAL GUARD

    General Carpenter. Chairman Wilson, Ranking Member Davis, 
committee members, it is an honor and a privilege to be here 
today to represent the 360,000-plus soldiers in the Army 
National Guard. Of those soldiers, 37,266 are currently 
mobilized. More than half have had combat experience and the 
sacrifice of the soldiers, their families, and employers has 
been tremendous.
    Looking back on the past decade, the Army National Guard 
has been there from the very beginning. The New York National 
Guard was among the first on the scene at the World Trade 
Center on
9/11, as was the Maryland and Virginia Guard shortly after the 
Pentagon was attacked.
    Beginning with 9/11, the response of the Army National 
Guard has continued to shoulder our responsibilities in the 
overseas fight in Afghanistan and Iraq while simultaneously 
responding to events in the homeland, including Katrina, Deep 
Horizon oil spill, and the many firsts in emergencies and 
disasters in 2011, devastating tornados, unprecedented floods 
and wildfires affecting almost half of the States. There is no 
question the Army Guard has proven its worth and our citizen 
soldiers deserve our deepest gratitude.
    I would like to specifically address the issue of access to 
the Army National Guard for non-named contingencies. The 
Department of Defense requested a change in the statute, 
Section 12304, which would allow the Reserve Components to be 
involuntarily called with prior coordination at the service 
chief level as well as the necessary budgetary authority to 
support the deployment.
    The Army National Guard and the adjutant generals are 
staunch advocates of the change in statute. We think that it 
will allow for the continued critical contributions of our 
soldiers and units in the effective use of soft power, that is 
theater security and cooperation, in the hope of reducing the 
possibility of a mobilized military response in the future.
    We think our soldiers, equipped with their battlefield 
experience, and their civilian skills, as well as their strong 
desire to be used can make a meaningful contribution to the 
State and Nation, are the right force at the right time. 
Without the change in statute, they will be denied the 
opportunity.
    Finally and as you might expect, I believe the Army 
National Guard is the best value for America. Force structure 
and military power can be sustained in the Army National Guard 
as an operational force for a fraction of the regular cost.
    Supporting capability in the Army National Guard not only 
makes good business sense, it is a twofer. By that I mean the 
same force is available to the Governor of the State, 
territory, or district in times of emergency and disaster, as 
well as the President of the United States to meet the 
requirements of the Nation in a Federal status.
    The Army National Guard is a force forward deployed in our 
area of operation, the homeland. The same force is battle 
tested and well-equipped for the overseas fight, should the 
need arise, truly a best value for America.
    We should not rush to reduce the size, structure, or 
capability of the Army National Guard without significant 
analysis and thorough deliberation.
    In closing I would like to once again to acknowledge the 
critical role your committee has played in building and 
sustaining the best National Guard I have seen in my career. I 
look forward to your questions and comments. Thank you.
    [The prepared statement of General Carpenter can be found 
in the Appendix on page 49.]
    Mr. Wilson. Thank you very much. We now proceed to General 
Stenner, Air Force Reserve.

STATEMENT OF LT. GEN. CHARLES E. STENNER, JR., USAF, CHIEF, AIR 
                         FORCE RESERVE

    General Stenner. Chairman Wilson, Ranking Member Davis, 
committee members, and fellow service members, thank you for 
permitting me the opportunity to be with you to have this 
constructive conversation regarding one of the most important 
parts of my job, ensuring that over 70,000 citizen airmen 
making up the Air Force Reserve have the resources and training 
essential to maintaining readiness.
    My written testimony outlines our readiness, successes and 
challenges but briefly I would like to mention the fact that 
reservists continue to play an increasing role in ongoing 
global operations. They support our Nation's needs, providing 
operational capabilities around the world.
    As we speak, Air Force reservists are serving in every 
combatant command area of responsibility. There are 
approximately 8,600 Air Force reservists currently activated to 
support missions. That number includes our forces' contribution 
to the Japanese relief effort and direct support to coalition 
operations in Libya, as well as others.
    Despite increasing operations tempo, aging aircraft, and 
increases in depot scheduled downtime we have improved fleet 
aircraft availability and mission capable rates. The Air Force 
Reserve is postured to do its part to meet the operational and 
strategic demands of our Nation's defense but that mandate is 
not without its share of challenges.
    Our continued ability to maintain a sustainable force with 
sufficient operational capability is predicated on having 
sufficient manpower and resources. The work of this committee 
is key in supporting legislation that enables us to fully 
develop members of our full-time support program, both military 
technicians and our Active, Guard reservists.
    You also provide us with the authority to implement 
necessary force management measures and that has been and will 
continue to be vital to ensuring Air Force readiness is 
maintained at a high level.
    In a time of constrained budgets and higher costs, in-depth 
analysis is required to effectively prioritize our needs but we 
must all appreciate the vital role that Reserve Components play 
in supporting our Nation's defense and concentrate our 
resources in areas that will give us the most return on our 
investment.
    Thank you for asking me here today to discuss these 
important issues affecting our airmen, and I look forward to 
your questions.
    [The prepared statement of General Stenner can be found in 
the Appendix on page 77.]
    Mr. Wilson. Thank you very much.
    And General Stultz, Army Reserve.

   STATEMENT OF LTG JACK C. STULTZ, USA, CHIEF, ARMY RESERVE

    General Stultz. Chairman Wilson, Mrs. Davis, other 
committee members, it is a pleasure and an honor to be here 
today to testify before you and represent the 205,000-plus Army 
Reserve soldiers deployed around the world.
    Today we keep 25,000-plus soldiers on Active Duty, plus our 
full-time support force of about 16,000 soldiers serving this 
Nation ongoing. We have been doing this since 2003.
    This morning I conducted a video teleconference [VTC] with 
soldiers in Afghanistan as I do frequently with soldiers in 
Afghanistan, Iraq, Horn of Africa, and other places. And I can 
report to you that they said their morale is great, they are 
proud of what they are doing, they are proud of serving. And 
every time I conduct a town hall meeting or a VTC session with 
Reserve soldiers I get the same report.
    Our retention rates right now are 119 percent of goal. Our 
recruiting rates are over 100 percent of goal. We are turning 
away individuals that want to join the Army Reserve because I 
do not have room for them.
    Right now the kids that we have coming in, and I call them 
kids because I am 59 years old, are well educated, they have 
got good civilian jobs, they are living the American Dream, and 
for some reason they raise their hand and join our force, 
knowing that we are going to tell them, that they are probably 
going to be called to go into war and risk their lives. And yet 
they are willing to do that.
    They tell me three things when I talk to them, ``Give me 
some predictability because I have another life. Do not waste 
my time. If you are going to train me make it meaningful.'' And 
third, ``Use me, do not put me back on the shelf.'' And that is 
why this access issue is such a key issue.
    Our soldiers that we have in our Reserve Components today 
are a national treasure. They are, as Ray said, a great return 
on investment for this country, but we have got to continue to 
use them in a meaningful way or otherwise we will lose them. 
And we cannot afford to lose that national treasure.
    And so, I look forward to your questions, sir, thank you.
    [The prepared statement of General Stultz can be found in 
the Appendix on page 84.]
    Mr. Wilson. Thank you very much. We now proceed with 
Admiral Debbink of the Naval Reserve.

 STATEMENT OF VADM DIRK J. DEBBINK, USN, CHIEF OF NAVY RESERVE

    Admiral Debbink. Chairman Wilson, Ranking Member Davis, 
members of the subcommittee, thank you for the opportunity to 
appear before you today. I have a great appreciation for your 
support of the 64,631 sailors in our Navy Reserve and their 
family members.
    With me today is also my new Force Master Chief, Force 
Chris Wheeler. He assumed his role on the 16th of June as the 
14th Master Chief of the Navy Reserve Force representing the 
52,000 of the Navy Reserve that form the backbone of our force 
which is our enlisted sailors.
    To testify today, the Navy Reserve sailors are operating 
globally. Approximately 30 percent of the Navy Reserve is 
providing support to Department of Defense operations including 
more than 4,700 Selected Reserve sailors who are either 
mobilized in support of overseas contingency operations or in 
their training heading out to their mobilization sites.
    While fully engaged in these operations ever since 
September 11, 2001, the Navy Reserve has answered the call to 
assist with major global crisis events during the last several 
months including Operation Tomodachi off Japan and Operation 
Odyssey Dawn in the Mediterranean. As our motto and our sailors 
proudly claim, we are ready now, anytime, anywhere.
    Well the legislative proposal before the Congress that 
provides for assured access to our Reserve Components for 
future routine deployments signifies a fundamental shift in the 
use of the Reserves, recognizing both the high level of 
expertise resident in our Guard and Reserve Forces, as well as 
the desire from today's Reserve sailors to continue performing 
real and meaningful work within the Navy's total force.
    In order for our sailors to do so we are ever mindful of 
the need to address the health and well-being of our sailors 
and their families.
    As written in the President's report entitled 
``Strengthening Our Military Families,'' stronger military 
families strengthen the fabric of America.
    Our fiscal year 2012 budget request includes funding for 
vital programs in support of physical, psychological, and 
financial well-being of our Navy Reserve sailors and their 
families.
    Active support of our employers is also a primary concern. 
In fact this month in the Navy we are, once again, focusing on 
the more than 7,000 employers of Navy Reserve sailors 
worldwide, honoring them with special events here in 
Washington, DC, last week, events at all of our Navy 
operational support centers in all 50 States around the 
country, and directly at their places of employment as well.
    The data and the anecdotal evidence that we have gathered 
both point towards continued strong support provided that we 
respect the three-way nature of the special relationship 
between our sailors, the needs of the Navy, and our employers' 
needs.
    It is a privilege to serve during this important and 
meaningful time in our Nation's defense, especially as a Navy 
Reserve sailor. With your support I am confident that your Navy 
Reserve will be able to continue supporting current operations 
while optimizing the strategic value of the Navy Reserve as a 
relevant force valued for our readiness, innovation, agility, 
and accessibility.
    Thank you for your demonstrated support, both to the Navy 
and the Navy Reserve and the families of our sailors and I look 
forward to your questions.
    Thank you, sir.
    [The prepared statement of Admiral Debbink can be found in 
the Appendix on page 122.]
    Mr. Wilson. Thank you very much, Admiral.
    And we will proceed now to General Moore with the Marine 
Corps Reserve.

   STATEMENT OF MAJ. GEN. DARRELL L. MOORE, USMC, DIRECTOR, 
      RESERVE AFFAIRS DIVISION, U.S. MARINE CORPS RESERVE

    General Moore. Sir, thank you very much for the opportunity 
to be here today and certainly it is a real pleasure to see you 
all here. You asked a question as part of your opening 
statement.
    I think we are all trying to divine the future here and 
really figure out, you know, what this does look like post 
Afghanistan.
    One thing I can tell you is that the Marine Reserves and 
their families, and the employers of our Marine Reserves expect 
our Marine Reserves to continue to deploy. As has been 
previously mentioned this morning or this afternoon rather we 
do need--as General Stultz said we need predictability.
    The Marines tell me constantly to ``put me in the game, 
coach.'' They want to continue to do that. Last week I was in 
Tbilisi, Georgia, and Constanta, Romania. We have got about 
1,000 Marine Reserves out there for 4 months or so as part of 
the Black Sea rotational force.
    I think that does reflect a bit of the future force there. 
That kind of theater security cooperation and partnership 
efforts that are important around the world.
    This afternoon besides Afghanistan we have got Marine 
Reserves in 17 countries around the world. I think that 
represents the future force. And then after we finish today, I 
am going to go out to Andrews and fly out to California.
    We have got 5,000 Marine Reserves in the field at Mountain 
Warfare Training Center, integrated with the 1st Marine 
Expeditionary Brigade headquarters at Camp Pendleton so we have 
got an Active Duty headquarters sitting on top of the Reserve 
infantry regiment, the Reserve Marine air group and Reserve 
combat logistics regiment.
    That is actually the largest exercise that will be 
conducted, Active or Reserve, for the Marine Corps CONUS 
[continental United States] this year. So we are an integral 
part of the total force. We train together. We have common 
bonds. And I look forward to your questions.
    Thank you very much for this opportunity, and I yield back 
the balance of my time.
    [The prepared statement of General Moore can be found in 
the Appendix on page 145.]
    Mr. Wilson. Thank you very much. And you actually saved 
time. It is amazing. General, thank you.
    And Admiral Callahan with the U.S. Coast Guard Reserve.

  STATEMENT OF RADM DAVID CALLAHAN, USCG, ACTING DIRECTOR OF 
       RESERVE AND LEADERSHIP, U.S. COAST GUARD RESERVES

    Admiral Callahan. Good afternoon, Chairman Wilson and 
Ranking Member Davis, and distinguished subcommittee members, 
thank you for including the Coast Guard Reserve in today's 
hearing and for your continued support of Coast Guardsmen 
serving across our Nation and overseas.
    We are pleased to have this opportunity to appear before 
you today. And also sitting behind me is the Master Chief Petty 
Officer of the Coast Guard Reserve Force, Master Chief Mark 
Allen, who represents the 8,100 members of our Reserve Force.
    For the Coast Guard Reserve 2010 was an extraordinarily 
challenging year for us dominated by the Deepwater Horizon oil 
spill and the largest Title 14 mobilization in the United 
States history. It involved almost a third of our Selected 
Reserve.
    The Deepwater Horizon event affirmed the Coast Guard's 
effectiveness as America's maritime first responder and 
particularly revealed the value and capacity and capability 
that our Coast Guard Reserve delivers in large-scale surge 
operations.
    At the peak of the Deepwater Horizon event nearly 60 
percent of the Coast Guard's individual responders were from 
our Reserve Component. Now this large-scale mobilization did 
highlight a limitation in the Secretary's authority to order 
recall when demand for Reserve mobilization exceeds Title 14 
authorized limits of--not more than 60 days and 4 months and 
not more than 120 days in any 2-year period.
    As a stop-gap measure we were able to issue more than 600 
Active Duty for Operational [Support of the] Active Component, 
ADOS, orders to reservists who requested and were supported or 
then approved for Title 10 voluntary Active Duty upon 
completion of their 60-day Title 14 orders.
    Now, although this course of action allows us to keep a 
sufficient number of Reserve personnel eligible for involuntary 
recall, it would not give us the flexibility to manage at the 
multiple events scenarios such as domestic hurricane responses 
that we were likely to face. So we are currently exploring 
options to address the 60-day Title 14 recall limitation and 
its effect on our readiness.
    I am also pleased to report that we have woven the Yellow 
Ribbon Program as part of our congressionally mandated DOD 
Yellow Ribbon Reintegration Program into our Coast Guard 
Reserve deployment process. There are numerous Yellow Ribbon 
events and have more scheduled for the rest of the year.
    As our reservists continue to deploy in overseas 
contingencies operations in other contingencies, I want to 
thank you and my fellow service Reserve Component chiefs for 
your continued support in the Yellow Ribbon program. And we 
look forward to more support in the future.
    We continue working with the Office of the Secretary of 
Defense Reserve Affairs and our fellow Reserve Components to 
execute the commission on National Guard and Reserve 
recommendations and have implemented the many benefits enacted 
into law.
    The 2008 National Defense Authorization Act authorized 
early retirement benefits for eligible reservists who serve on 
Active Duty under various sections of Title 10 and Title 32. We 
are actively reviewing options to ensure that Coast Guard 
reservists mobilized under Title 14 qualify for that same early 
retirement benefit.
    Our Reserve Force remains actively engaged in expeditionary 
and domestic missions in support of overseas contingency 
operations and natural disasters. And since September 2001, we 
have recalled more than 7,800 reservists under Title 10 and 
more than 3,300 under Title 14.
    Mr. Chairman, our experience over the past year has clearly 
demonstrated the value of the Coast Guard Reserve in the 
defense and security of our Nation, not only in the homeland 
but overseas as well. Our Coast Guard serving in the Reserve 
Component proudly stand the watch and remain true to the Coast 
Guard's motto, Semper Paratus, always ready.
    So, on behalf of the men and women of the Coast Guard, we 
thank you for your support and thank you for the opportunity to 
testify today. And I look forward to your questions.
    [The prepared statement of Admiral Callahan can be found in 
the Appendix on page 153.]
    Mr. Wilson. Thank you very much. And at this time, we will 
begin the questions. We will abide by the 5-minute rule, which 
applies to me, too, and each member of the committee, and Craig 
Greene, who is our professional staff member, who will keep the 
time for us.
    I would like to point out, too, how grateful I am. We have 
another record turnout of members of the subcommittee. They 
truly have so many different obligations and so it is a real 
testimony to their commitment to our military that they would 
be here today.
    As I begin, I would like to thank each of you for your 
service. And as I look at each of you, I am just so impressed, 
and it reminds me why I served 3 years in the Reserves, 28 
years in the National Guard. And that is that it was the people 
that I had the privilege of serving with. The most capable, 
confident, patriotic persons that I have had the privilege of 
working with have been in the Reserves and the Guard.
    I want to thank you. Obviously, it had an effect on my 
sons. My youngest son was just commissioned a second lieutenant 
and is working for General Stultz. He is a combat engineer and 
so--he is at annual training right now, today. And then I was 
really grateful. Only one son is a bit off track. He is a 
doctor in the Navy.
    And General Moore--and I give all credit to my wife. But 
General Moore, you mentioned about visiting Constanta. I was on 
a sister city visit to Cluj-Napoca, Romania, in 1997. And my 
son was getting ready to go to the Naval Academy, and members 
of the city council there with tears in their eyes, said that 
one day, we dream of the American military and Navy appearing 
in Constanta with a relationship with Romania.
    And so, this was a country that had been under Ceausescu 
and so, how exciting to me of what success of the American 
military. You should be proud that there is the greatest spread 
of democracy and freedom today in the world because of your 
service.
    With my question, General McKinley, the Defense 
Authorization Act that we, the House version, provides for the 
creation of a vice-chief for the National Guard Bureau. And it 
reflects a change, transforming your office from one which is 
administrative to operational. How do you feel about this? And 
then, is there any potential of conflict with your role with 
NORTHCOM [U.S. Northern Command]?
    General McKinley. Thanks, Chairman Wilson. As you know, I 
have worked within the building for the past 2\1/2\ years to 
seek support for the vice-chief of the National Guard Bureau. I 
think it is essential for our continued assumption of new 
responsibilities as a joint activity of the Department of 
Defense.
    Obviously, with some of the downsizing that former 
Secretary Gates had pushed through building, the timing was not 
that good. But I think my fellow Reserve chiefs can attest to 
the fact that having a strong deputy or vice-chief in this very 
critical time to cover the required meetings and to support the 
soldiers, sailors, airmen, marines that we all work with is 
vitally important.
    So I certainly look forward to the debate that occurs. We 
certainly can use the vice-chief of the National Guard Bureau, 
put them to good service, it also helps build our bench for 
future officers to assume my grade.
    Mr. Wilson. And for each of you in 3 minutes. Certainly, we 
will not be able to get all the way through, but Admiral since 
you are sitting first proceeding this way. The issue of 
mobilization authority, the Department of Defense has made 
recommendations for flexibility. How do you feel about this?
    Admiral Debbink. I think it is essential in the current 
proposal. I believe we will meet the need. As we started down 
this path, say, 2 years ago, it was all about accessibility to 
the Reserve and Guard. And then, in the end, I think the most 
important thing this legislation will do is provide the 
assurance to the Department, that when we are doing the 
planning and programming at the Reserve Component, the Guard 
Component, we will be there for them because that has been the 
issue that that has been, the debate on the other side of the 
river taking place, is, how do we know you are really going to 
be there for us? Unless we know you are going to be there, we 
cannot program. We cannot plan for you. We cannot budget for 
you. So this will give them that assurance.
    Mr. Wilson. And General Wyatt.
    General Wyatt. Mr. Chairman, I agree with the admiral. You 
know, I mentioned earlier that the Air National Guard provides 
75 percent of the request for forces for, from the Air Force 
with volunteerism, but that was not meant to diminish the 
importance of this legislation, because there are different 
scenarios that would help the Air Force. I believe that it has 
more access with the passage of this legislation.
    So, it is important for the accessibility of all the 
Reserve Components. Not to be confused with the fact that we 
already are accessible, but this would help assure the service 
chiefs that they can reach out and touch the Guard and Reserve 
when they need to.
    Mr. Wilson. Thank you. General Stenner.
    General Stenner. I will second each of the previous 
speakers and go along the lines of it will give us the access 
but it will also allow the planners to do as they need to do, 
to size our force appropriately.
    After that, I think it is incumbent on us in the uniform 
here to figure out the policies that go along with that access 
to ensure there is no overuse of this particular access because 
that could, in fact, be a downside when a particular skill set 
is required over and over, we will, in fact, have a dwell 
issue. So, I would caution against that. It is up to us in the 
uniform to make that.
    Mr. Wilson. Thank you very much. And I am going to call the 
time on myself. General McKinley, I apologize but we proceed to 
Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and again, to all of 
you. We appreciate your service and, certainly, your 
leadership.
    You know, we are certainly aware that the proposed language 
offered out of the Department would provide broad authority to 
call up and to deploy reservists and National Guardsmen. And I 
want to ask you all if there are any factors that you think 
would impede that, would make it more difficult for that to be 
carried out?
    And I think the other, I guess the flipside of that, is 
what can be done to assure the reservists that they will be 
utilized for operational mission and not just called back to 
backfill, essentially, requirements as the Active Force draws 
down? We know that there are likely to be changes as we look at 
limiting resources in some way. And I would be naive to think 
that that is not going to hit the Guard and Reserve in some 
way.
    So I am just interested in knowing from your perspective 
how you see that issue, and it really does speak to the 
meaningfulness of the role, the operational role particularly 
that Guard and Reserve speak of which I think does keep them 
engaged and certainly committed to continuing their service.
    General McKinley. Ma'am, these last 10 years have been 
remarkable years in American history and for all of us who 
represent our Reserve and Guard. We have seen this great 
resilience created in a force of over a million people 
represented here at this table who do work. They strive to do 
the best job they can. But they are now the best equipped, best 
led, most combat seasoned force in the Reserve Component 
history.
    So, I do not see things impeding the progress that the 
Reserve Components have made over the last 10 years. But as 
General Stultz said, if we can create the environment of 
predictability and stability, if we can assure our young men 
and women who joined--predominantly, most of us since September 
11, 2001--that they will have a meaningful job and that they 
will be used effectively, then I think we stand shoulder to 
shoulder with the young people who have dedicated themselves to 
this Nation.
    General Stultz. I will just add that I think this is 
critical to our national defense, because as we eventually get 
out of Iraq and Afghanistan, I think we are going to shift our 
focus in the four Ps of prepare, prevent, prevail, preserve, 
from prevail to prevent.
    Where can we get engaged, just like when we were talking 
Romania, Georgia, and places like that and the places we are 
engaged today to prevent getting into the future conflicts? And 
that theater engagement security cooperation, really they are 
asking for medical support. They are asking for engineer 
support. They are asking for logistics support. They are asking 
for those capabilities that between General Carpenter and I, we 
have the preponderance of.
    Today, between the Guards and Reserve, we have 75 percent 
of engineer capability of the Army. We have 70 percent of 
medical capability of the Army. We have about 70 percent of the 
MP [military police] capabilities, 70 percent of logistics 
capability, 85 percent of civil affairs capability. So it is 
not a matter of us backfilling the Army. We are the Army.
    And we are going to be the future. And so, to do the 
security cooperation of theater engagement this Nation is going 
to need to the future, they are going to have to use the 
Reserve. So we need to change the law so that we make it easy 
in that context.
    General Carpenter. From the Army Guard perspective, a 
couple of comments. First of all, the process we have for 
mobilization right now calls for 2 years notification of 
sourcing. And through the National Guard Bureau and through our 
director in the Army Guard we source units against missions. So 
we will have 2 years to sort out which mission we are going to 
take and which unit or which State is going to shoulder that 
mission.
    We do that today. And we are very successful in the 
mobilization business. We have not had any significant problems 
at all as we have dealt with the adjutant generals in that 
role.
    The coordination for that is going to take place between 
the Army National Guard and the Army and with the adjutant 
generals. The adjutant generals are strongly in support of this 
access issue. And I am confident that they are going to figure 
out exactly the process for mobilization.
    That really is where the crux of the matter is, is the 
soldier who has a job going to be allowed to leave that job to 
go for 60 days for one of these theatre security cooperation 
efforts?
    And I can tell you, I am an engineer officer, and I have 
got a book. And it shows a picture in 1960 of a paving project. 
And that paving project is the corps of engineers in 
Afghanistan in 1960. And think what, how things would have 
changed if we had been willing to stay in that kind of an 
effort over the longer period of time since 1960.
    And so this theatre security cooperation, if we do this 
right, our soldiers will understand the importance of that. 
That it is just as important as going down range and serving in 
Iraq and Afghanistan because it is a preventative measure.
    Mrs. Davis. Thank you. I certainly appreciate that.
    And I just want to applaud very quickly. I know that I have 
had an opportunity to speak to several of you about the 
transition programs for our soldiers, airmen, Navy, Marine 
going back. And I think that we need to learn from some of the 
good work that you all have done.
    Thank you.
    Mr. Wilson. Dr. Joe Heck.
    Dr. Heck. Thank you, Mr. Chairman. I did not realize I was 
up that fast in the queue.
    First, thank you all for the service, not just to our 
Nation, but to the men and women that you represent.
    Mr. Chairman, in all full disclosure, I am still a member 
of the Active Reserve, and General Stultz is my chief.
    [Laughter.]
    Dr. Heck. So I am not going to ask him any questions. I am 
asking everybody else--no.
    I appreciate, General Stultz, your comment of, you know, 
how we want to be used. And one of the issues that always seems 
to come up is how can we best utilize folks in their community 
in support of community-type operations from the Title 10 side, 
not the National Guard side, necessarily.
    And the issues that we face when trying to do that, 
primarily in funding and getting the MOU [memorandum of 
understanding], running it up the JAG [Judge Advocate General] 
chain and making sure that we can do all these things. And by 
the time that is done, the community event is over.
    So in the vein of, you know, this being a great recruiting 
tool plus it gets our folks out into the community. It keeps 
their skills sharp. It builds their confidence and unit 
cohesion. And ``it keeps them off the shelf '' which is what we 
are all looking to do.
    What can we do to help streamline that process, so that if 
a community event comes up, for instance one of my units, they 
want a medic to stand by with an aid bag in case somebody goes 
down, that we can get that done and do that mission without 
having to take so long to get it processed?
    General Stultz. Well, I think we have been in discussion, 
obviously, with some of the members of Congress of changing the 
policy on the use of Title 10 Reserves in the homeland.
    And make sure that, you know, the National Guard is always 
going to be the military first responder because the Title 32 
authority the Governor has and being able to utilize them and 
the magnificent response that they give. But we have said, we 
have got a lot of capabilities also in the communities that 
should be made available for disasters or whatever type events.
    We need to change some of the laws that restrict us in 
doing that of how you can use the Title 10 Reserve in the 
homeland.
    And then I think, within the Department, we need to change 
some of the policies of what it takes to get approval because 
just as you have indicated, the soldiers want to do that. They 
are citizens of Nevada. And they want to help out in their 
State and they want to be recognized by their State. We limit 
them from doing that because of our laws and our policies.
    Dr. Heck. I appreciate that.
    General McKinley, can you give us an update on how the 
process is going with NORTHCOM doing the training of National 
Guard officers to be the dual-hatted commander when we move 
forward and integrate Title 10 forces under Active Guard?
    General McKinley. Thank you, sir.
    It has been a great year with Admiral Sandy Winnefeld being 
out as the combatant commander of NORTHCOM in Colorado Springs. 
He walked in with a fresh idea, fresh thinking, and involved 
all of us actually.
    The contingency dual status commander now, we just call 
dual status command, has been embraced by the Governors of the 
50 States, the three territories, and the district. We have 
made significant progress in getting the unity of effort and 
the chains of command set so that we can utilize all the 
services that you see before you today.
    And so I am pleased to report that we are making great 
progress in that area--38 States have the dual status commander 
already trained. The rest will be in the next class in Colorado 
Springs.
    So we will be set to represent the Governors and the 
Federal Government so that we can utilize all the forces to 
save citizens' lives here at home.
    Dr. Heck. All right. Thanks for that update.
    And last question, I do not know if it applies across all 
Reserve Forces or, again, it is just USAR [United States Army 
Reserves] specific.
    But, you know, the idea of providing predictability, 
obviously, is very important for somebody who has got--who is 
twice the citizen. But, what we find, sometimes, for those of 
us that are in TDA [table of distribution allowance] units that 
do not necessarily get sourced, as opposed to a TOE [table of 
organization and equipment] unit that we do become the manpower 
pool. And although you may not be in year five of your ARFORGEN 
[Army Force Generation] cycle, you are getting yanked to be a 
backfill person.
    What kind of prevention or preventive strategies are we 
putting in to try to keep TDA in line with that ARFORGEN 5-year 
cycle?
    General Stultz. That is a great point because, as you very 
well know, for the Army Reserve, we have a huge portion of the 
generating force for the Army.
    The medical force, we represent 60 percent of the medical 
structure of the Army.
    But we represent a huge force in the training base of the 
Army--the drill sergeants, the MOS [military occupational 
specialty] trainers, the people who do the collective training 
for the Army.
    And what we have recommended is we need to apply that same 
model to the forces that are in those units; one, because we 
owe that soldier predictability that he is not going to get 
yanked if we have this authority. But number two, to provide 
predictability to the Army.
    So, if I can take a--let us say, a training battalion that 
has got five companies of drill sergeants, and I can say to 
TRADOC [Training and Doctrine Command], every year, I will give 
you one of those companies. Then I would give them 
predictability how they can plan their training cycles. And I 
have given my soldiers predictability.
    So I think we have got to take our TDA force as well as our 
MTOE [modified table of organization and equipment] force and 
put them into that ARFORGEN cycle.
    Dr. Heck. All right. Again, thank you all very much for 
your lifetime of service to our Nation and to our men and women 
in uniform.
    Mr. Chair, I yield back.
    Mr. Wilson. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair. And thanks to all of 
you on the panel today for your service and for being here.
    And I want to make a particular mention of the great 
turnout today, too, as the chairman did. And I think it is 
actually a credit to the chairman and to Mrs. Davis. And they 
are working together on bipartisan basis in the subcommittee 
and in the larger committee. So I want to make sure that we all 
give them tremendous credit, especially the chairman.
    General McKinley, it is my understanding that the Per Diem 
Committee ruled in February that members of the National Guard, 
being put on Title 10 orders, from Title 32, should have their 
Basic Allowance for Housing [BAH] recalculated based on their 
home of record.
    And since the BAH, when they are under Title 32 orders is 
based on their permanent duty location, soldiers, airmen, and 
their families are often losing money because of this 
recalculation. I do not think this recalculation makes much 
sense to me. And that is why Congresswoman Bordallo and I are 
working together to take a hard look at solutions to the 
problem in general.
    Can you just share some of your thoughts on that issue 
today?
    General McKinley. Well, if I could ask my colleagues who 
represent the proponents of the Guard Force to talk 
specifically to the Army Guard and the Air Guard piece of that. 
And then I am sure we all do. And I have a comment at the end, 
sir.
    Mr. Loebsack. Thank you.
    General Carpenter. Congressman, I--this first came to our 
attention here about 6 months ago, when the adjutant general of 
Massachusetts surfaced this issue. And it was disadvantaging 
his soldiers in Massachusetts as they mobilized and deployed.
    We went to and worked with the Army on this specific issue 
and the problem that we have got is it is a statutory issue. 
And so, it is in the joint travel regulation. And so--and that 
is a DOD-level decision.
    We are now in the process of submitting through the Army a 
request to change that particular part of the joint travel 
regulation to allow for the change that you are advocating so 
that we do not disadvantage the soldiers.
    So it is in process now, sir.
    Mr. Loebsack. Okay.
    General Wyatt. What the current DOD instruction does as 
General Carpenter indicated--sets up differences between the 
calculations as it applies to a drill status guardsman which is 
based upon home of record.
    And an NGR [National Guard regulation], for example, that 
is based upon permanent duty stations. You have accurately 
outlined the differences.
    And I guess, maybe the reason why there was a difference is 
because most--a lot of the drills status guardsmen might have a 
tendency to live further away.
    But regardless, I think anything that could be done with 
the DODI [Department of Defense instruction], and we are going 
through the same thing with the Air Force that General 
Carpenter's with the Army, to put consistency and eliminate the 
differences between the different statuses that we have in the 
Air National Guard would certainly be fairer to all of our 
members.
    And that is the objective, I believe.
    Mr. Loebsack. Thank you.
    General McKinley. My final comment is we are working with 
the Department Secretary McGinnis and the Chairman and the 
Secretary to try to resolve this, sir.
    Mr. Loebsack. Thank you very much.
    One other question, that is for the three of you also.
    And I just preface it by stating how proud I am of our Iowa 
National Guard. The 2,800 who are largely back now from 
Afghanistan. And they have done a great job over there.
    But again, the dual role that the National Guard plays to--
you all know about the floods of Iowa in 2008. Now we have got 
floods in Western Iowa along the Missouri River.
    And just a general question, how are we going to keep the 
training, the equipment, everything that we need for the 
Guard--not to take away from the Reserves as well, but it is a 
Guard question specifically. How are we going to do this going 
forward?
    I know that is a big question. We only have a minute and 5 
seconds left. But to the extent which you can answer that 
question, that would be great.
    Thank you.
    General McKinley. We are in the midst, as you can imagine, 
of some serious budget talks for us with the Army and the Air 
Force. And the two directors are up to their necks in trying to 
make the case that this great force that we have created over 
time needs to have adequate resources to sustain itself.
    And for that dual mission of the State and the Federal 
mission, the Guard is trying to make the case with the services 
that you just cannot walk away from it.
    So Ray, and Bud, in 30 seconds, how are we doing?
    General Wyatt. Accessibility, whether it is the fight 
overseas or at home, takes proper statutory authorities, we are 
talking about that today. It also takes proper training and 
resourcing to make sure that we are trained to that level.
    But also it takes appropriate planning. And what this 
legislation does for the fight overseas helps us with that. But 
to be accessible you have to have the statutory, you have to 
have the people, and the equipment, and the training, but you 
also have to plan for MPA days to pay the folks when they come 
on duty.
    General Carpenter. Mr. Congressman, not unlike General 
Stultz, we are seeing unprecedented retention rates as well as 
recruiting rates and that is a function of people who want to 
come and do something for their Nation and they want to be part 
of something.
    If we do not use these soldiers, if we do not meet their 
expectations, they will leave us just as quickly as they came 
to us. The Guard right now has more equipment, modern 
equipment, than we have ever had. We have got the battle-
experienced soldiers and it would be a shame for us to walk 
away from that.
    Mr. Loebsack. I am very proud of the readiness centers we 
have been able to build around the country as well, thanks to 
this committee and to the Appropriations Committee as well.
    Thanks to all of you for your great service and thank you 
for indulging me, Mr. Chairman, for letting me go a little 
longer. Thank you.
    Mr. Wilson. Well, Mr. Loebsack, thank you for your active 
involvement in the committee.
    And we next proceed to Mr. Coffman.
    Mr. Coffman. Well thank you, Mr. Chairman. I am a big 
proponent of the Guard and Reserve having served in the Army, 
the Army Reserve, the Marine Corps, and the Marine Corps 
Reserve and having deployed twice in combat in the Marine Corps 
Reserve.
    The--my fundamental concern is this, that we are in an 
environment of tremendous fiscal pressures, and I think that 
Defense is going to have a target on its back in these coming 
debates. And I think Secretary of Defense--former Secretary of 
Defense Gates, I think, expressed before the Armed Services 
Committee on a number of occasions his concern about the 
trajectory of cost, the growing personnel cost relative to 
acquisition cost and if it is not corrected will we in fact 
become a hollow force over time as some of our NATO allies have 
become.
    And so I think that from my view, one of the solutions in 
this equation is the Guard and Reserve, that we know that the 
personnel cost are greatly reduced with the Guard and Reserve 
relative to Active units with the same capability, retaining 
that capability.
    And so it is my view that we need to look at restructuring 
our military with emphasis in the Guard and Reserve. The fact 
is, today, we do not have the kind of pure competitor--we do 
not want one--that we did during the cold war that required a 
very large standing military.
    We are not going to be doing another Iraq and Afghanistan. 
I think the former Secretary of Defense said it well with--that 
is--I think in his speech before West Point, words to the 
effect that if another general came to me and said we ought to 
invade, pacify, and administer another country and I would tell 
him, I think, words to the effect he was nuts. We are not going 
down that road again.
    I think Yemen and Somalia are the template for the future. 
It is more counterterrorism, more lighter footprint, more 
special operations. So I just think that we need to retain this 
capability and the only way to retain this capability under the 
kind of fiscal pressures that we have is to--is a greater 
emphasis in the Guard and Reserve Components of the United 
States military.
    And I am--General McKinley, could you respond to that?
    General McKinley. Thanks, Congressman Coffman. After every 
major war in the 20th century, the Guard and Reserve was put 
back on the shelf. My intuition tells me that we are going to 
have to argue very strenuously in front of our services to make 
the case that you just made.
    We are but one vote in councils that are decided mostly on 
Title 10 issues. We have just started making our case on the 
value proposition but you said it better than I could say it 
for sure. We are here to tell you that we believe we are the 
answer to America's security needs in a time of fiscal 
constraint. And we are willing to put our forces on the line, 
operationally, their capability, their equipment and their 
leadership to make that case in front of the American people.
    Mr. Coffman. You know, I think there are, certainly there 
are within our force structure, there is the expeditionary 
components that are necessary to retain on Active Duty but it 
is my position that we need to expand, we need to--in this 
restructuring, we need to look at expanding the Guard and 
Reserve as--because it is the only way that the United States 
can maintain its military capability given the fiscal pressures 
that we have.
    And I think that we could do that certainly without in any 
way sacrificing the national security interests of the United 
States. But if we in fact go in with making cuts that simply 
reduce end strength without doing the restructuring I have 
talked about, we will compromise our capability. And I am very 
concerned about that.
    With that, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you very much, and thank you for your 
military service.
    And we are grateful to have Congresswoman Madam Bordallo of 
Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And I thank all of our witnesses, and there are a lot of 
stars out there. My first question is for General Carpenter. As 
you know, we have more guardsmen serving per capita on Guam 
than does any other State or territory in our country.
    The western Pacific, and of course, our chairman is aware 
of that, he was there when that was presented to us on Guam. 
The western Pacific has unique challenges as all of you know. 
And one of these challenges is funding for travel for soldiers 
to get between the islands within the Northern Marianas to get 
to their drill site.
    Now, we have repeatedly passed the authority to reimburse 
certain members of the National Guard for traveling expenses 
related to inactive duty training, yet movement to get this 
going has yet to come.
    However, this broader authority has run into issues with 
the Per Diem Committee's 150-mile rule. And as I understand it, 
there is a business case for waiving the 150-mile rule for Guam 
National Guardsmen and possibly other locations because travel 
is only permissible through expensive airfare.
    When will these policies be amended to take into 
consideration the distinctive challenges that we face on Guam? 
And I get the sense that there continues to be a disconnect 
between the Active Duty Army and Army Guard on this matter. And 
I want to see a resolution sooner than rather than later.
    General Carpenter. Congresswoman, you brought this issue to 
our attention about almost a year ago.
    Ms. Bordallo. That is correct.
    General Carpenter. And we raised the issue with the Army. 
We prepared the request for the exception to the authority to 
be able to provide support for people in Saipan who wanted to 
be part of the Guam National Guard for them to be able to get 
their commuting expenses covered between the islands.
    That is still in process. Let me take that for the record. 
And I owe you an answer, ma'am.
    [The information referred to can be found in the Appendix 
on page 193.]
    Ms. Bordallo. Thank you very much, general. And I will 
expect that is going to be a good answer.
    General Carpenter. Yes, ma'am.
    Ms. Bordallo. My second question is for, well, each of the 
Reserve chiefs but I do not know that I have the time to hear 
but if a couple of you can answer this. Given that Reserve and 
Guard benefits and entitlements are earned based on the kind of 
orders an individual is serving and the length of time, are 
each of the services ensuring that their members know exactly 
what legal authority they are on orders under every time they 
go on Active Duty? And do their orders capture this important 
information?
    Whichever one of you----
    General Stenner. I will start and just be brief, and also I 
will give my counterparts the time, but we do put on those 
orders under which authority they were ordered to duty. So 
there are specific entitlements that they can have, and that is 
the technical answer to your question.
    What type of orders the folks are asking for right now has 
also kind of evolved from we are ready to go on a volunteer 
status to over a 10-year period of time we found that that has 
increased from 80 percent or decreased from 80 percent to about 
65 percent that do want the authorities and the protections 
that come with some of the other types of order to duty.
    So we are working through that issue as we speak with how 
to ensure that they get on the right set of orders at the right 
time.
    Ms. Bordallo. Thank you.
    General Stultz. I will echo what Charlie said, but the 
thing that we are really trying to focus on in the Army 
Reserve, one is we want to reduce the number of duty statuses. 
We have got way too many duty statuses. It makes it too 
confusing and just as you pointed out, you have got too many 
differences in benefits.
    And the problem comes in, in which pot of money because 
that soldier may say, ``Put me on this type of order because 
this is the benefit I need.'' But we may have a different pot 
of money that comes from a different order. And you may have 
two soldiers serving in the same location on two different sets 
of orders with two different types of benefits. And that to me 
is not acceptable.
    So we are trying to say let us reduce the number of duty 
statuses we have down to the minimum so that when we put 
somebody on orders they are all on the same type of orders.
    Ms. Bordallo. Thank you and is there another--yes?
    Admiral Debbink. And I should offer that one of the 
benefits of the long war that we have been about for the last 
10 years is refining our procedures, and in particular in our 
case that we have a Navy mobilization processing centers that 
we send all of our sailors through, because communications is 
one of the biggest challenges in making sure those sailors 
understand the type of orders and the benefits with those 
orders. In fact one of the problems we have is pushback on why 
do I have to go to the NMPS [Navy Mobilization Processing 
Site]. Well, this is why. In order to be informed--fully 
informed as we work through the challenges of streamlining 
things in the future.
    Ms. Bordallo. Thank you very much.
    And, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you very much.
    We now proceed to Congressman Robert Brady, of the 
Commonwealth of Pennsylvania.
    Mr. Brady. Thank you, Mr. Chairman.
    Again, thank you for your service to our Nation and thank 
the men and women who serve underneath you. I really have a 
request more than a question. I have a full-time staff under my 
staff that deals mainly on military issues, 90 percent of the 
requests that he gets are with medical and disability issues.
    And it pertained to, you know, expediting their issues and 
their problems. I mean it is a good morale factor that when 
they know that they are out there serving, that there are men 
and women out there serving in harm's way, note that when they 
come back into civility, back to the civilian status, that they 
do have these benefits that are readily, you know, offered to 
them and do not have to call Congressperson, not that I do not 
mind taking the calls, or trying to help them.
    But myself and my staff people run into major red tape 
trying to get things done for disability pay or for their 
request for medical care. So I would just ask you again if you 
could, you know, look into that and, you know, make sure that 
our men and women that are in harm's way when they do come back 
home that we do show them the proper respect by taking care of 
their issues that they have whether be a medical issue or a 
disability that they need that cannot go back to the workforce 
that they started out in. And it is a pretty important issue 
that we get 90 percent of the calls. So I thank you for that. 
Again, thank you for your service.
    And thank you, Mr. Chairman for your time.
    Mr. Wilson. Thank you, Mr. Brady.
    And as we conclude, Mrs. Davis would like to make a 
comment.
    Mrs. Davis. Thank you, Mr. Chairman. I was just going to 
follow up really on the question that Mr. Coffman and, I think, 
others were raising as well, just in terms of that, the access 
issue. And I think just from our point of view, certainly from 
my point of view, is trying to understand, you know, what those 
costs are. Obviously, the mobilization, there are additional 
costs that are built in to that. But that does not necessarily 
mean that all the cost, you know, are higher.
    And I think when we can break that down transparently and 
really understand it then we can be active in trying to present 
that argument as well. Thank you all so much for, again, for 
your service and leadership.
    Mr. Wilson. And as we conclude, I want to thank you again 
for your service, the people who work with you, the service 
members, their military families, the veterans who make it 
possible for us to have the freedoms that we enjoy. 
Additionally, I want to thank you for the opportunity that you 
provide to the young people of our country to serve our country 
to truly use their talents that they have.
    And that is why I am very impressed, and I know that 
Reserve and Guard members want to be actively involved. And it 
makes the difference for our country. At this time, we shall be 
adjourned.
    [Whereupon, at 3:16 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             July 27, 2011

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 27, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8165.001
    
    [GRAPHIC] [TIFF OMITTED] T8165.002
    
    [GRAPHIC] [TIFF OMITTED] T8165.003
    
    [GRAPHIC] [TIFF OMITTED] T8165.004
    
    [GRAPHIC] [TIFF OMITTED] T8165.005
    
    [GRAPHIC] [TIFF OMITTED] T8165.006
    
    [GRAPHIC] [TIFF OMITTED] T8165.007
    
    [GRAPHIC] [TIFF OMITTED] T8165.008
    
    [GRAPHIC] [TIFF OMITTED] T8165.009
    
    [GRAPHIC] [TIFF OMITTED] T8165.010
    
    [GRAPHIC] [TIFF OMITTED] T8165.011
    
    [GRAPHIC] [TIFF OMITTED] T8165.012
    
    [GRAPHIC] [TIFF OMITTED] T8165.013
    
    [GRAPHIC] [TIFF OMITTED] T8165.014
    
    [GRAPHIC] [TIFF OMITTED] T8165.015
    
    [GRAPHIC] [TIFF OMITTED] T8165.016
    
    [GRAPHIC] [TIFF OMITTED] T8165.017
    
    [GRAPHIC] [TIFF OMITTED] T8165.018
    
    [GRAPHIC] [TIFF OMITTED] T8165.019
    
    [GRAPHIC] [TIFF OMITTED] T8165.020
    
    [GRAPHIC] [TIFF OMITTED] T8165.021
    
    [GRAPHIC] [TIFF OMITTED] T8165.022
    
    [GRAPHIC] [TIFF OMITTED] T8165.023
    
    [GRAPHIC] [TIFF OMITTED] T8165.024
    
    [GRAPHIC] [TIFF OMITTED] T8165.025
    
    [GRAPHIC] [TIFF OMITTED] T8165.026
    
    [GRAPHIC] [TIFF OMITTED] T8165.027
    
    [GRAPHIC] [TIFF OMITTED] T8165.028
    
    [GRAPHIC] [TIFF OMITTED] T8165.029
    
    [GRAPHIC] [TIFF OMITTED] T8165.030
    
    [GRAPHIC] [TIFF OMITTED] T8165.031
    
    [GRAPHIC] [TIFF OMITTED] T8165.032
    
    [GRAPHIC] [TIFF OMITTED] T8165.033
    
    [GRAPHIC] [TIFF OMITTED] T8165.034
    
    [GRAPHIC] [TIFF OMITTED] T8165.035
    
    [GRAPHIC] [TIFF OMITTED] T8165.036
    
    [GRAPHIC] [TIFF OMITTED] T8165.037
    
    [GRAPHIC] [TIFF OMITTED] T8165.038
    
    [GRAPHIC] [TIFF OMITTED] T8165.039
    
    [GRAPHIC] [TIFF OMITTED] T8165.040
    
    [GRAPHIC] [TIFF OMITTED] T8165.041
    
    [GRAPHIC] [TIFF OMITTED] T8165.042
    
    [GRAPHIC] [TIFF OMITTED] T8165.043
    
    [GRAPHIC] [TIFF OMITTED] T8165.044
    
    [GRAPHIC] [TIFF OMITTED] T8165.045
    
    [GRAPHIC] [TIFF OMITTED] T8165.046
    
    [GRAPHIC] [TIFF OMITTED] T8165.047
    
    [GRAPHIC] [TIFF OMITTED] T8165.048
    
    [GRAPHIC] [TIFF OMITTED] T8165.049
    
    [GRAPHIC] [TIFF OMITTED] T8165.050
    
    [GRAPHIC] [TIFF OMITTED] T8165.051
    
    [GRAPHIC] [TIFF OMITTED] T8165.052
    
    [GRAPHIC] [TIFF OMITTED] T8165.053
    
    [GRAPHIC] [TIFF OMITTED] T8165.054
    
    [GRAPHIC] [TIFF OMITTED] T8165.055
    
    [GRAPHIC] [TIFF OMITTED] T8165.056
    
    [GRAPHIC] [TIFF OMITTED] T8165.057
    
    [GRAPHIC] [TIFF OMITTED] T8165.058
    
    [GRAPHIC] [TIFF OMITTED] T8165.059
    
    [GRAPHIC] [TIFF OMITTED] T8165.060
    
    [GRAPHIC] [TIFF OMITTED] T8165.061
    
    [GRAPHIC] [TIFF OMITTED] T8165.062
    
    [GRAPHIC] [TIFF OMITTED] T8165.063
    
    [GRAPHIC] [TIFF OMITTED] T8165.064
    
    [GRAPHIC] [TIFF OMITTED] T8165.065
    
    [GRAPHIC] [TIFF OMITTED] T8165.066
    
    [GRAPHIC] [TIFF OMITTED] T8165.067
    
    [GRAPHIC] [TIFF OMITTED] T8165.068
    
    [GRAPHIC] [TIFF OMITTED] T8165.069
    
    [GRAPHIC] [TIFF OMITTED] T8165.070
    
    [GRAPHIC] [TIFF OMITTED] T8165.071
    
    [GRAPHIC] [TIFF OMITTED] T8165.072
    
    [GRAPHIC] [TIFF OMITTED] T8165.073
    
    [GRAPHIC] [TIFF OMITTED] T8165.074
    
    [GRAPHIC] [TIFF OMITTED] T8165.075
    
    [GRAPHIC] [TIFF OMITTED] T8165.076
    
    [GRAPHIC] [TIFF OMITTED] T8165.077
    
    [GRAPHIC] [TIFF OMITTED] T8165.078
    
    [GRAPHIC] [TIFF OMITTED] T8165.079
    
    [GRAPHIC] [TIFF OMITTED] T8165.080
    
    [GRAPHIC] [TIFF OMITTED] T8165.081
    
    [GRAPHIC] [TIFF OMITTED] T8165.082
    
    [GRAPHIC] [TIFF OMITTED] T8165.083
    
    [GRAPHIC] [TIFF OMITTED] T8165.084
    
    [GRAPHIC] [TIFF OMITTED] T8165.085
    
    [GRAPHIC] [TIFF OMITTED] T8165.086
    
    [GRAPHIC] [TIFF OMITTED] T8165.087
    
    [GRAPHIC] [TIFF OMITTED] T8165.088
    
    [GRAPHIC] [TIFF OMITTED] T8165.089
    
    [GRAPHIC] [TIFF OMITTED] T8165.090
    
    [GRAPHIC] [TIFF OMITTED] T8165.091
    
    [GRAPHIC] [TIFF OMITTED] T8165.092
    
    [GRAPHIC] [TIFF OMITTED] T8165.093
    
    [GRAPHIC] [TIFF OMITTED] T8165.094
    
    [GRAPHIC] [TIFF OMITTED] T8165.095
    
    [GRAPHIC] [TIFF OMITTED] T8165.096
    
    [GRAPHIC] [TIFF OMITTED] T8165.097
    
    [GRAPHIC] [TIFF OMITTED] T8165.098
    
    [GRAPHIC] [TIFF OMITTED] T8165.099
    
    [GRAPHIC] [TIFF OMITTED] T8165.100
    
    [GRAPHIC] [TIFF OMITTED] T8165.101
    
    [GRAPHIC] [TIFF OMITTED] T8165.102
    
    [GRAPHIC] [TIFF OMITTED] T8165.103
    
    [GRAPHIC] [TIFF OMITTED] T8165.104
    
    [GRAPHIC] [TIFF OMITTED] T8165.105
    
    [GRAPHIC] [TIFF OMITTED] T8165.106
    
    [GRAPHIC] [TIFF OMITTED] T8165.107
    
    [GRAPHIC] [TIFF OMITTED] T8165.108
    
    [GRAPHIC] [TIFF OMITTED] T8165.109
    
    [GRAPHIC] [TIFF OMITTED] T8165.110
    
    [GRAPHIC] [TIFF OMITTED] T8165.111
    
    [GRAPHIC] [TIFF OMITTED] T8165.112
    
    [GRAPHIC] [TIFF OMITTED] T8165.113
    
    [GRAPHIC] [TIFF OMITTED] T8165.114
    
    [GRAPHIC] [TIFF OMITTED] T8165.115
    
    [GRAPHIC] [TIFF OMITTED] T8165.116
    
    [GRAPHIC] [TIFF OMITTED] T8165.117
    
    [GRAPHIC] [TIFF OMITTED] T8165.118
    
    [GRAPHIC] [TIFF OMITTED] T8165.119
    
    [GRAPHIC] [TIFF OMITTED] T8165.120
    
    [GRAPHIC] [TIFF OMITTED] T8165.121
    
    [GRAPHIC] [TIFF OMITTED] T8165.122
    
    [GRAPHIC] [TIFF OMITTED] T8165.123
    
    [GRAPHIC] [TIFF OMITTED] T8165.124
    
    [GRAPHIC] [TIFF OMITTED] T8165.125
    
    [GRAPHIC] [TIFF OMITTED] T8165.126
    
    [GRAPHIC] [TIFF OMITTED] T8165.127
    
    [GRAPHIC] [TIFF OMITTED] T8165.128
    
    [GRAPHIC] [TIFF OMITTED] T8165.129
    
    [GRAPHIC] [TIFF OMITTED] T8165.130
    


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 27, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8165.131
    
    [GRAPHIC] [TIFF OMITTED] T8165.132
    
    [GRAPHIC] [TIFF OMITTED] T8165.133
    
    [GRAPHIC] [TIFF OMITTED] T8165.134
    
    [GRAPHIC] [TIFF OMITTED] T8165.135
    
    [GRAPHIC] [TIFF OMITTED] T8165.136
    
    [GRAPHIC] [TIFF OMITTED] T8165.137
    
    [GRAPHIC] [TIFF OMITTED] T8165.138
    
    [GRAPHIC] [TIFF OMITTED] T8165.139
    
    [GRAPHIC] [TIFF OMITTED] T8165.140
    
    [GRAPHIC] [TIFF OMITTED] T8165.141
    
    [GRAPHIC] [TIFF OMITTED] T8165.142
    
    [GRAPHIC] [TIFF OMITTED] T8165.143
    
    [GRAPHIC] [TIFF OMITTED] T8165.144
    
    [GRAPHIC] [TIFF OMITTED] T8165.145
    
    [GRAPHIC] [TIFF OMITTED] T8165.146
    
    [GRAPHIC] [TIFF OMITTED] T8165.147
    
    [GRAPHIC] [TIFF OMITTED] T8165.148
    
    [GRAPHIC] [TIFF OMITTED] T8165.149
    
    [GRAPHIC] [TIFF OMITTED] T8165.150
    
    [GRAPHIC] [TIFF OMITTED] T8165.151
    
    [GRAPHIC] [TIFF OMITTED] T8165.152
    
    [GRAPHIC] [TIFF OMITTED] T8165.153
    
    [GRAPHIC] [TIFF OMITTED] T8165.154
    
    [GRAPHIC] [TIFF OMITTED] T8165.155
    
    [GRAPHIC] [TIFF OMITTED] T8165.156
    
    [GRAPHIC] [TIFF OMITTED] T8165.157
    
    [GRAPHIC] [TIFF OMITTED] T8165.158
    
    [GRAPHIC] [TIFF OMITTED] T8165.159
    
    [GRAPHIC] [TIFF OMITTED] T8165.160
    


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 27, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO

    General Carpenter. A resolution addressing this issue is expected 
to be complete by 1 October 2011. The ARNG has worked closely with the 
HQDA DCS G-1 on this issue since its inception.
    The Military Advisory Panel to the Per Diem Travel and 
Transportation Allowance Committee is expected to vote in favor of 
changing the Joint Force Travel Regulation (JFTR) to allow for the 
reimbursement of Guam National Guardsmen travel expenses. A memo dated 
6 September, 2011 was issued by the Per Diem Travel and Transportation 
Allowance Committee which allows for payment of transportation costs 
for OCONUS Inactive Duty for Training (IDT). These changes are 
scheduled to appear in JFTR change 299, dated 1 November 2011. This 
determination became effective on 6 September 2011.
    The change will reduce the JFTR IDT commuting distance from 150 
miles to 50-75 miles for non-contiguous States and U.S. territories. 
The JFTR change will require that the Soldier be in a shortage MOS as 
per initial discussions on this matter. This change to the JFTR will be 
approved and signed by Mr. Retherford, Deputy Assistant Secretary of 
the Army (Military Personnel) prior to the end of September. It will be 
officially added to the JFTR within 1-2 weeks after he has signed and 
approved the change.
    Guam Army National Guard Soldiers living less than 150 miles from 
their duty station in a shortage MOS will then be allowed reimbursement 
for travel expenses related to IDT. [See page 21.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 27, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. The use of an operational Reserve post current 
contingency operations in Iraq and Afghanistan will certainly require 
an increased commitment by service members and their families. Some 
members may prefer to continue to serve as a traditional Selected 
Reserve member, one weekend a month and 2 weeks in the summer, and 
others may want to commit to a more robust mobilization schedule. How 
do you plan to accommodate for the different levels of commitment?
    General McKinley. The ``one weekend per month and two weeks in the 
summer'' model as the sole experience of a National Guardsman is one of 
the distant past. The inherent operational duality of our Citizen 
Soldiers and Airmen is understood by the members of our force now more 
than ever, as more than three quarters of our current force entered 
service in a post-9/11 environment. In addition to Afghanistan and 
Iraq, our ongoing missions include Africa, the Balkans, America's 
southwest border, and the State Partnership Program which involves more 
than 60 countries. Interested Army and Air National Guardsmen and women 
will continue to have multiple opportunities to volunteer for such 
missions. The Army and Air National Guard expend significant effort 
from top to bottom toward providing the tools for Soldiers and Airmen 
to balance civilian careers with their obligations to national 
security.
    These efforts are coordinated through the Army Force Generation 
Model (ARFORGEN). This model provides the predictability required for 
units to organize and plan. The predictability of this model also 
enables Soldiers who are looking for a more robust mobilization 
schedule to anticipate future volunteer opportunities. Such volunteers 
reduce the margin of cross-leveling in our formations, resulting in 
increased predictability. In turn, this increases the time individual 
Soldiers have between deployments and reduces stress on the operational 
Force. The Army National Guard's current posture as an Operational 
Force, along with the ARFORGEN model, will allow Soldiers to serve both 
as traditional Guardsmen, and as full-time Soldiers throughout their 
respective military careers. The Air National Guard utilizes 
predictability, volunteerism, and ``rainbowing'' to aid Airmen in 
balancing civilian careers with their obligations to our national 
security. The Air Force's Aerospace Expeditionary Force (AEF), 
implemented in 1999, helps provide predictability while meeting 
commitments to theater commanders. Volunteerism provides individual 
flexibility within the AEF system. By permitting Airmen to volunteer 
for mobilization under Title 10 US Code, Sec. 12301(d), an individual 
Airmen can tailor their AEF deployment commitment to match their 
civilian career commitments. ``Rainbowing'' is a deployment management 
tool that allows individuals to serve units other than their assigned 
unit, and deploy in AEF cycles other than their own. AEF, volunteerism, 
and rainbowing combined allow individual Guard Airman to optimize their 
Air Force and civilian commitments by planning and preparing for 
federal service within the matrix of their civilian careers.
    Mr. Wilson. The use of an operational Reserve post current 
contingency operations in Iraq and Afghanistan will certainly require 
an increased commitment by service members and their families. Some 
members may prefer to continue to serve as a traditional Selected 
Reserve member, one weekend a month and 2 weeks in the summer, and 
others may want to commit to a more robust mobilization schedule. How 
do you plan to accommodate for the different levels of commitment?
    General Wyatt. The ``one weekend per month and two weeks in the 
summer'' model as the sole experience of a National Guardsman is one of 
the distant past. The inherent operational duality of our Citizen 
Soldiers and Airmen is understood by the members of our force now more 
than ever, as more than three quarters of our current force entered 
service in a post-9/11 environment. In addition to Afghanistan and 
Iraq, our ongoing missions include Africa, the Balkans, America's 
southwest border, and the State Partnership Program which involves more 
than 60 countries. Interested Army and Air National Guardsmen and women 
will continue to have multiple opportunities to volunteer for such 
missions. The Army and Air National Guard expend significant effort 
from top to bottom toward providing the tools for Soldiers and Airmen 
to balance civilian careers with their obligations to national 
security.
    These efforts are coordinated through the Army Force Generation 
Model (ARFORGEN). This model provides the predictability required for 
units to organize and plan. The predictability of this model also 
enables Soldiers who are looking for a more robust mobilization 
schedule to anticipate future volunteer opportunities. Such volunteers 
reduce the margin of cross-leveling in our formations, resulting in 
increased predictability. In turn, this increases the time individual 
Soldiers have between deployments and reduces stress on the operational 
Force. The Army National Guard's current posture as an Operational 
Force, along with the ARFORGEN model, will allow Soldiers to serve both 
as traditional Guardsmen, and as full-time Soldiers throughout their 
respective military careers. The Air National Guard utilizes 
predictability, volunteerism, and ``rainbowing'' to aid Airmen in 
balancing civilian careers with their obligations to our national 
security. The Air Force's Aerospace Expeditionary Force (AEF), 
implemented in 1999, helps provide predictability while meeting 
commitments to theater commanders. Volunteerism provides individual 
flexibility within the AEF system. By permitting Airmen to volunteer 
for mobilization under Title 10 US Code, Sec. 12301(d), an individual 
Airmen can tailor their AEF deployment commitment to match their 
civilian career commitments. ``Rainbowing'' is a deployment management 
tool that allows individuals to serve units other than their assigned 
unit, and deploy in AEF cycles other than their own. AEF, volunteerism, 
and rainbowing combined allow individual Guard Airman to optimize their 
Air Force and civilian commitments by planning and preparing for 
federal service within the matrix of their civilian careers.
    Mr. Wilson. The use of an operational Reserve post current 
contingency operations in Iraq and Afghanistan will certainly require 
an increased commitment by service members and their families. Some 
members may prefer to continue to serve as a traditional Selected 
Reserve member, one weekend a month and 2 weeks in the summer, and 
others may want to commit to a more robust mobilization schedule. How 
do you plan to accommodate for the different levels of commitment?
    General Carpenter. The ``one weekend per month and two weeks in the 
summer'' model as the sole experience of a National Guardsman is one of 
the distant past. The inherent operational duality of our Citizen 
Soldiers and Airmen is understood by the members of our force now more 
than ever, as more than three quarters of our current force entered 
service in a post-9/11 environment. In addition to Afghanistan and 
Iraq, our ongoing missions include Africa, the Balkans, America's 
southwest border, and the State Partnership Program which involves more 
than 60 countries. Interested Army and Air National Guardsmen and women 
will continue to have multiple opportunities to volunteer for such 
missions. The Army and Air National Guard expend significant effort 
from top to bottom toward providing the tools for Soldiers and Airmen 
to balance civilian careers with their obligations to national 
security.
    These efforts are coordinated through the Army Force Generation 
Model (ARFORGEN). This model provides the predictability required for 
units to organize and plan. The predictability of this model also 
enables Soldiers who are looking for a more robust mobilization 
schedule to anticipate future volunteer opportunities. Such volunteers 
reduce the margin of cross-leveling in our formations, resulting in 
increased predictability. In turn, this increases the time individual 
Soldiers have between deployments and reduces stress on the operational 
Force. The Army National Guard's current posture as an Operational 
Force, along with the ARFORGEN model, will allow Soldiers to serve both 
as traditional Guardsmen, and as full-time Soldiers throughout their 
respective military careers. The Air National Guard utilizes 
predictability, volunteerism, and ``rainbowing'' to aid Airmen in 
balancing civilian careers with their obligations to our national 
security. The Air Force's Aerospace Expeditionary Force (AEF), 
implemented in 1999, helps provide predictability while meeting 
commitments to theater commanders. Volunteerism provides individual 
flexibility within the AEF system. By permitting Airmen to volunteer 
for mobilization under Title 10 US Code, Sec. 12301(d), an individual 
Airmen can tailor their AEF deployment commitment to match their 
civilian career commitments. ``Rainbowing'' is a deployment management 
tool that allows individuals to serve units other than their assigned 
unit, and deploy in AEF cycles other than their own. AEF, volunteerism, 
and rainbowing combined allow individual Guard Airman to optimize their 
Air Force and civilian commitments by planning and preparing for 
federal service within the matrix of their civilian careers.
    Mr. Wilson. The use of an operational Reserve post current 
contingency operations in Iraq and Afghanistan will certainly require 
an increased commitment by service members and their families. Some 
members may prefer to continue to serve as a traditional Selected 
Reserve member, one weekend a month and 2 weeks in the summer, and 
others may want to commit to a more robust mobilization schedule. How 
do you plan to accommodate for the different levels of commitment?
    General Stenner. The Air Force Reserve accommodates for the 
different levels of commitment with flexible opportunities to serve. 
Individuals can serve either as a Traditional Reservist, where they 
live and serve in a part-time or full-time jobs as Air Reserve 
Technicians (ARTs), Active Guard Reserve (AGR), or as an Individual 
Mobilization Augmentee (IMAs) Reservists who work according to tailored 
schedules at designated locations. Since our inception in 1948, the Air 
Force Reserve has served as a key part of the nation's defense and 
offers similar benefits afforded to those on active duty, with one 
major addition: the benefit of time. It has been an ideal option for 
those who have never been in the military and want to participate 
without being on full-time active duty.
    Additionally, many opportunities to serve within the Air Force 
Reserve are sourced solely through volunteers. This allows for mission 
accomplishment with limited impact on the employer support base.
    Mr. Wilson. The use of an operational Reserve post current 
contingency operations in Iraq and Afghanistan will certainly require 
an increased commitment by service members and their families. Some 
members may prefer to continue to serve as a traditional Selected 
Reserve member, one weekend a month and 2 weeks in the summer, and 
others may want to commit to a more robust mobilization schedule. How 
do you plan to accommodate for the different levels of commitment?
    General Stultz. Today's Army Reserve Soldiers joined or re-enlisted 
after 9/11 to be a part of the operational force. They have an 
expectation for mobilizations and deployments. It is imperative to 
retain these experienced Soldiers by providing them with the 
operational employment they desire. In contrast, the Soldiers of the 
legacy, strategic reserve left service in significant numbers from 2004 
to 2006. We cannot allow this loss of experience and institutional 
knowledge to happen again. Simply put, the Army Reserve Soldier expects 
to be used as an integrated member of the operational force, our 
Soldiers only ask that, in return, when asked to mobilize or deploy 
that it is done on a predictable, recurring cycle. Reverting to a 
Strategic Reserve would entail a similar significant loss of our most 
operationally experienced Army Reserve Soldiers. With the adoption of 
the ARFORGEN model, the Army Reserve will provide a more predictable 
cycle of missions to our Soldiers in a manner that satisfies their 
desire for national service and operational employment. Every five 
years, an Army Reserve Soldier can expect to operationally deploy or 
mobilize for periods of active duty in order to support Army missions 
at home or abroad. Our efforts to also develop and provide a Continuum 
of Service will allow our Soldiers to move more seamlessly through 
periods of Selected Reserve service, active duty service, and time 
spent in the Individual Ready Reserve (IRR) as a civilian. This will 
enable the Army Reserve Soldier, over time, to balance the needs of 
their careers and families with the desire to serve their country as 
part of the operational force.
    Mr. Wilson. The use of an operational Reserve post current 
contingency operations in Iraq and Afghanistan will certainly require 
an increased commitment by service members and their families. Some 
members may prefer to continue to serve as a traditional Selected 
Reserve member, one weekend a month and 2 weeks in the summer, and 
others may want to commit to a more robust mobilization schedule. How 
do you plan to accommodate for the different levels of commitment?
    Admiral Debbink. The purpose of drill weekends and annual training 
periods is to prepare members of the Reserve Component for the 
eventuality of activation in support of National military objectives. 
This is the commitment into which members enter when they are appointed 
or enlisted into the Navy Reserve. The service will continue to provide 
opportunities for Sailors to contribute to the Nation's security and 
strategic objectives, in peacetime and during war, while working to 
strike a proper balance between the needs and availability of the 
member with the operational imperative to shape the Force to support 
fleet requirements in a ``Ready Now, Anytime, Anywhere'' posture.
    Mr. Wilson. The use of an operational Reserve post current 
contingency operations in Iraq and Afghanistan will certainly require 
an increased commitment by service members and their families. Some 
members may prefer to continue to serve as a traditional Selected 
Reserve member, one weekend a month and 2 weeks in the summer, and 
others may want to commit to a more robust mobilization schedule. How 
do you plan to accommodate for the different levels of commitment?
    General Moore. Our members have become accustomed to and now expect 
to be activated on a periodic basis to fulfill operational requirements 
in accordance with established mob-to-dwell ratios. It is our intent to 
design our policy and procedures to appropriately review these 
considerations so that the needs of the individual member are fully 
considered, and well balanced with the Services' mission requirements. 
The language, as proposed in the Senate-version of the FY12 NDAA, 
addresses the individual preferences of the member. As a Service, we 
must consider the service members' hazardous duty tours, frequency of 
tours, dwell time, family considerations, and employment considerations 
when determining which members will be ordered to active duty.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. Do each of the services have an accurate costing 
methodology to ensure an accurate budget programming in the future? 
Recognizing the potential for increased costs with a higher readiness 
and training requirements necessary for an operational Reserve, how 
have the Services proposed to budget and plan for these requirements? 
Do you have an estimate of what it would cost in each service's 
rotation cycle for the size unit you expect to mobilize routinely?
    General Carpenter. [The information referred to was not available 
at the time of printing.]
    Ms. Bordallo. Do each of the services have an accurate costing 
methodology to ensure an accurate budget programming in the future? 
Recognizing the potential for increased costs with a higher readiness 
and training requirements necessary for an operational Reserve, how 
have the Services proposed to budget and plan for these requirements? 
Do you have an estimate of what it would cost in each service's 
rotation cycle for the size unit you expect to mobilize routinely?
    General Wyatt. [The information referred to was not available at 
the time of printing.]
    Ms. Bordallo. Do each of the services have an accurate costing 
methodology to ensure an accurate budget programming in the future? 
Recognizing the potential for increased costs with a higher readiness 
and training requirements necessary for an operational Reserve, how 
have the Services proposed to budget and plan for these requirements? 
Do you have an estimate of what it would cost in each service's 
rotation cycle for the size unit you expect to mobilize routinely?
    General Stenner. The Air Force has accumulated almost twenty years 
of documented experience and costing data with its Reserve Component 
support of contingencies in both voluntary and mobilized status. Since 
the advent of the Aerospace Expeditionary Force construct, that 
contingency support cost data has been further refined and codified in 
planning, programming, and budgeting efforts. Those cost estimates have 
been incorporated in the active Air Force budget submissions for both 
Military Personnel and Organization & Maintenance Overseas Contingency 
Operations for the past several years. Future active Air Force 
budgeting will continue to request funding for required RC personnel 
support, and the Reserve and Guard will continue to request adequate 
funding to assure the continued mission readiness of assigned 
personnel.
    Ms. Bordallo. Do each of the services have an accurate costing 
methodology to ensure an accurate budget programming in the future? 
Recognizing the potential for increased costs with a higher readiness 
and training requirements necessary for an operational Reserve, how 
have the Services proposed to budget and plan for these requirements? 
Do you have an estimate of what it would cost in each service's 
rotation cycle for the size unit you expect to mobilize routinely?
    General Stultz. The Army Reserve (AR) developed a business case to 
provide a portion of its force, during the Army Force Generation 
(ARFORGEN) cycle ``Available Year,'' as the Title 10 Reserve Component 
(RC) portion of the Army's operational force. The Army Reserve 
Component's readiness and training requirements will be tied to their 
deployment schedule. The Army will need to prioritize funding for 
activating Guard and Reserve units among the existing Total Force 
programs and capabilities within the baseline budget.
    Ms. Bordallo. Do each of the services have an accurate costing 
methodology to ensure an accurate budget programming in the future? 
Recognizing the potential for increased costs with a higher readiness 
and training requirements necessary for an operational Reserve, how 
have the Services proposed to budget and plan for these requirements? 
Do you have an estimate of what it would cost in each service's 
rotation cycle for the size unit you expect to mobilize routinely?
    Admiral Debbink. The Navy has an accurate costing methodology to 
ensure accurate budget programming. The cost for Reserve units entering 
a heightened operational phase to complete training, medical, and 
personnel readiness requirements will not require any modifications to 
current budget and planning processes. We do not currently have an 
estimate of what it would cost to implement the proposed authority to 
activate reserve component members for other than operational missions 
and national emergency purposes. Only upon enactment, and subsequent 
promulgation of Defense Department guidance on how the provision will 
be implemented, will Navy be able to determine the likely construct and 
employment of the Force that will lead to proper planning and budgeting 
associated with implementation.
    Ms. Bordallo. Do each of the services have an accurate costing 
methodology to ensure an accurate budget programming in the future? 
Recognizing the potential for increased costs with a higher readiness 
and training requirements necessary for an operational Reserve, how 
have the Services proposed to budget and plan for these requirements? 
Do you have an estimate of what it would cost in each service's 
rotation cycle for the size unit you expect to mobilize routinely?
    General Moore. Yes, the Marine Corps has an accurate costing 
methodology based on previously executed operations. Post-OCO, the 
Marine Corps anticipates the continued employment of the Reserve to 
fulfill Total Force operational requirements. The exact size and scope 
has yet to be determined and is likely to fluctuate based on the 
National Security Strategy and operational tempo. The most significant 
cost of employing our Reserves as an operational force comes in the 
form of manpower funding necessary for pay, allowances, and 
entitlements for Reservists when on active duty. The Marine Corps will 
need to prioritize funding for activating reserve units among the 
existing Total Force programs and capabilities within our baseline 
budget. We have developed a process to capture these costs and include 
these in our baseline budget requests in the future.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WEST

    Mr. West. The Department of Defense has proposed some modifications 
to the Reserve mobilization authority in Title 10, United States Code 
12304 to allow for a more flexible access to the Reserves to 
participate in non-contingency operations. I am a little concerned that 
the recommend language of ``any mission'' is too broad of an authority 
and may have unintended consequences for the Reserve Component. I 
understand each service will use this authority for different types of 
missions, and this committee is supportive of maintaining a relevant 
operational Reserve, but can you address in detail why this 
modification is needed, and what types of missions do you envision your 
component executing with this authority?
    General McKinley. The National Guard has demonstrated we are an 
operational force. As a veteran Reserve Component force, the National 
Guard's Citizen-Soldiers possess both military and civilian skill 
sets--kinetic and smart powers that allow us to respond quickly and 
efficiently wide variety of theatre security cooperation needs, and to 
do so in a cost-effective, proportionate, basis.
    Currently, Section 12304 of Title 10 United States Code provides a 
limited Presidential Reserve Call-up to augment active forces. This 
includes operational missions and select emergency response operations, 
such as actual or potential Weapons of Mass Destruction threat and 
terrorist attack scenarios. The Department of Defense's reliance on the 
National Guard as an Operational Force requires changes to that law.
    This modification will allow the National Guard to remain an 
operational force, and provide combatant commanders with the unique 
skills and capabilities of the National Guard. The modification could 
enable more flexible employment of National Guard forces and assets, to 
support and execute a variety of new and emerging missions. These may 
include, but are not limited to, the following areas:

    <bullet>  Full Spectrum Development Units--Assist developing 
nations on matters of civic governance, agriculture, emergency 
management, crisis response, and internal defense.
    <bullet>  Foreign Consequence Management--Assist host nations with 
responding to, managing, and mitigating the effects of events/
contamination from a Chemical, Biological, Radiological, or Nuclear 
source.
    <bullet>  Exercise, Exchanges, and Theater Engagement--Advise 
developing nations on improving internal defense capabilities. Provide 
assistance in establishing infrastructure and economic bases for 
regional stability. Provide mentorship and training, and continue to 
support OCONUS engagement activities.

    Mr. West. The Department of Defense has proposed some modifications 
to the Reserve mobilization authority in Title 10, United States Code 
12304 to allow for a more flexible access to the Reserves to 
participate in non-contingency operations. I am a little concerned that 
the recommend language of ``any mission'' is too broad of an authority 
and may have unintended consequences for the Reserve Component. I 
understand each service will use this authority for different types of 
missions, and this committee is supportive of maintaining a relevant 
operational Reserve, but can you address in detail why this 
modification is needed, and what types of missions do you envision your 
component executing with this authority?
    General Wyatt. The National Guard has demonstrated we are an 
operational force. As a veteran Reserve Component force, the National 
Guard's Citizen-Soldiers possess both military and civilian skill 
sets--kinetic and smart powers that allow us to respond quickly and 
efficiently wide variety of theatre security cooperation needs, and to 
do so in a cost-effective, proportionate, basis.
    Currently, Section 12304 of Title 10 United States Code provides a 
limited Presidential Reserve Call-up to augment active forces. This 
includes operational missions and select emergency response operations, 
such as actual or potential Weapons of Mass Destruction threat and 
terrorist attack scenarios. The Department of Defense's reliance on the 
National Guard as an Operational Force requires changes to that law.
    This modification will allow the National Guard to remain an 
operational force, and provide combatant commanders with the unique 
skills and capabilities of the National Guard. The modification could 
enable more flexible employment of National Guard forces and assets, to 
support and execute a variety of new and emerging missions. These may 
include, but are not limited to, the following areas:

    <bullet>  Full Spectrum Development Units--Assist developing 
nations on matters of civic governance, agriculture, emergency 
management, crisis response, and internal defense.
    <bullet>  Foreign Consequence Management--Assist host nations with 
responding to, managing, and mitigating the effects of events/
contamination from a Chemical, Biological, Radiological, or Nuclear 
source.
    <bullet>  Exercise, Exchanges, and Theater Engagement--Advise 
developing nations on improving internal defense capabilities. Provide 
assistance in establishing infrastructure and economic bases for 
regional stability. Provide mentorship and training, and continue to 
support OCONUS engagement activities.

    Mr. West. The Department of Defense has proposed some modifications 
to the Reserve mobilization authority in Title 10, United States Code 
12304 to allow for a more flexible access to the Reserves to 
participate in non-contingency operations. I am a little concerned that 
the recommend language of ``any mission'' is too broad of an authority 
and may have unintended consequences for the Reserve Component. I 
understand each service will use this authority for different types of 
missions, and this committee is supportive of maintaining a relevant 
operational Reserve, but can you address in detail why this 
modification is needed, and what types of missions do you envision your 
component executing with this authority?
    General Carpenter. The National Guard has demonstrated we are an 
operational force. As a veteran Reserve Component force, the National 
Guard's Citizen-Soldiers possess both military and civilian skill 
sets--kinetic and smart powers that allow us to respond quickly and 
efficiently wide variety of theatre security cooperation needs, and to 
do so in a cost-effective, proportionate, basis.
    Currently, Section 12304 of Title 10 United States Code provides a 
limited Presidential Reserve Call-up to augment active forces. This 
includes operational missions and select emergency response operations, 
such as actual or potential Weapons of Mass Destruction threat and 
terrorist attack scenarios. The Department of Defense's reliance on the 
National Guard as an Operational Force requires changes to that law.
    This modification will allow the National Guard to remain an 
operational force, and provide combatant commanders with the unique 
skills and capabilities of the National Guard. The modification could 
enable more flexible employment of National Guard forces and assets, to 
support and execute a variety of new and emerging missions. These may 
include, but are not limited to, the following areas:

    <bullet>  Full Spectrum Development Units--Assist developing 
nations on matters of civic governance, agriculture, emergency 
management, crisis response, and internal defense.
    <bullet>  Foreign Consequence Management--Assist host nations with 
responding to, managing, and mitigating the effects of events/
contamination from a Chemical, Biological, Radiological, or Nuclear 
source.
    <bullet>  Exercise, Exchanges, and Theater Engagement--Advise 
developing nations on improving internal defense capabilities. Provide 
assistance in establishing infrastructure and economic bases for 
regional stability. Provide mentorship and training, and continue to 
support OCONUS engagement activities.

    Mr. West. The Department of Defense has proposed some modifications 
to the Reserve mobilization authority in Title 10, United States Code 
12304 to allow for a more flexible access to the Reserves to 
participate in non-contingency operations. I am a little concerned that 
the recommend language of ``any mission'' is too broad of an authority 
and may have unintended consequences for the Reserve Component. I 
understand each service will use this authority for different types of 
missions, and this committee is supportive of maintaining a relevant 
operational Reserve, but can you address in detail why this 
modification is needed, and what types of missions do you envision your 
component executing with this authority?
    General Stenner. The Air Force Reserve supports the Department's 
efforts to modify 12304; however it does not intend to use the expanded 
authority at this time, should it become law. The Air Force Reserve 
uses a combination of volunteerism and mobilization to support its on-
going missions.
    Mr. West. The Department of Defense has proposed some modifications 
to the Reserve mobilization authority in Title 10, United States Code 
12304 to allow for a more flexible access to the Reserves to 
participate in non-contingency operations. I am a little concerned that 
the recommend language of ``any mission'' is too broad of an authority 
and may have unintended consequences for the Reserve Component. I 
understand each service will use this authority for different types of 
missions, and this committee is supportive of maintaining a relevant 
operational Reserve, but can you address in detail why this 
modification is needed, and what types of missions do you envision your 
component executing with this authority?
    General Stultz. The Army Reserve anticipates using this authority 
to continue to conduct a variety of missions in support of theater 
security cooperation and building partner nation capacity, particularly 
once forces in Afghanistan and Iraq are removed or reduced.
    The Army is in the process of establishing a menu of Reserve 
Component use options for forces not deployed during the ARFORGEN 
available year. The menu of options includes Theater Security 
Cooperation missions, Joint Chiefs of Staff Exercises, and CONUS 
missions. Army Reserve missions have the added benefit of maintaining 
Army force readiness while reducing the burden on a fiscally 
constrained Army. Currently, the Army Reserve is participating in 
``Pacific Partnership'' and ``Beyond Horizons'' missions; Medical 
Readiness Exercises in Korea, Africa, Kosovo, Honduras, Europe, and 
Guatemala; Military to Military missions; and ``building partner 
capacity'' events. We believe modifications to the US Code 12304 
authority will increase Army Reserve ability to meet these needs and 
participate in future requirements--all tailored to the strengths and 
capabilities an operational Army Reserve. Without modifications to US 
Code 12304, Army Reserve activities will end as OCO funding diminishes.
    While the language ``any mission'' may appear to be too broad, 
however is quite necessary for continued access to the Reserve 
Components and an enduring operational Reserve.
    Mr. West. The Department of Defense has proposed some modifications 
to the Reserve mobilization authority in Title 10, United States Code 
12304 to allow for a more flexible access to the Reserves to 
participate in non-contingency operations. I am a little concerned that 
the recommend language of ``any mission'' is too broad of an authority 
and may have unintended consequences for the Reserve Component. I 
understand each service will use this authority for different types of 
missions, and this committee is supportive of maintaining a relevant 
operational Reserve, but can you address in detail why this 
modification is needed, and what types of missions do you envision your 
component executing with this authority?
    Admiral Debbink. This modification is needed to ensure timely 
access to Reserve force personnel during future periods of relative 
geopolitical stability. In an era of emerging global contingencies 
which may not warrant a Congressional or Presidential declaration of 
war or national emergency, the Department of Defense lacks the 
flexibility to access Reserve Component members to participate in total 
force solutions to meet rapidly evolving requirements. The authority 
sought by the Department of Defense provides the following benefits:

    <bullet>  Enhances flexibility and efficient use of the Total Force 
allowing the services to best design its AC/RC mix to meet strategic 
and operational requirements;
    <bullet>  Enhances Total Force capacity by allowing RC units and 
members to be included in long-range planning processes;
    <bullet>  Provides the opportunity to enhance dwell/ITEMPO to 
desired levels through increased capacity provided by RC units and 
members;
    <bullet>  Enhances the overall readiness of RC units with high-
demand skill sets, ensuring a more robust total force response capacity 
for future contingency operations;
    <bullet>  Provides predictability of future routine military 
obligations for individual Reserve members, their families and their 
employers; and
    <bullet>  Provides a mechanism to access RC members for routine 
requirements assured of the various protections currently granted for 
other involuntary duty assignments.

    The Navy Reserve would use this authority to augment force 
rotations for overseas requirements with preplanned Reserve units.
    Mr. West. The Department of Defense has proposed some modifications 
to the Reserve mobilization authority in Title 10, United States Code 
12304 to allow for a more flexible access to the Reserves to 
participate in non-contingency operations. I am a little concerned that 
the recommend language of ``any mission'' is too broad of an authority 
and may have unintended consequences for the Reserve Component. I 
understand each service will use this authority for different types of 
missions, and this committee is supportive of maintaining a relevant 
operational Reserve, but can you address in detail why this 
modification is needed, and what types of missions do you envision your 
component executing with this authority?
    General Moore. Our challenge is ensuring we are able to access our 
Reserve units for peacetime missions unrelated to contingency 
operations. Our Reserves are well-suited to perform missions, such as 
theater security cooperation, which will continue after the wars in 
Iraq and Afghanistan are over. However, to be cost-effective, we need 
to avoid cobbling together groups of individual volunteers. For this 
reason, we consider the legislative proposal to revise 10 USC 12304 to 
be critical to the success of an operational reserve. This new 
authority will allow the Marine Corps to provide cohesive units to 
satisfy Total Force non-contingency operational requirements while 
maintaining unit integrity and minimizing cross-leveling of 
individuals, and ensure our continued ability to employ our Reserves to 
fulfill combatant commanders' operational requirements short of war or 
national emergency.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
